SEC.gov |  Headquarters Fitness Center
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Headquarters Fitness Center
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
Implementation of Fitness Program
Audit Report No. 247
September 13, 1996
SUMMARY
We found that the Commission has effectively implemented a fitness program by opening facilities at headquarters and the Operations Center.  We are making several recommendations to enhance the program, including providing additional programs and safety at the Operations Center; publicizing subsidies for regional employees; adding fitness center members to the Fitness Advisory Committees; and verifying the salary levels on which member fees are based.
The Office of Administrative and Personnel Management, which manages the fitness program, provided comments (attached) on a prior draft of this report.  We have modified the report as appropriate to reflect the comments.
OBJECTIVES AND SCOPE
Our primary objective was to determine if the Commission's fitness program was effective.  We also evaluated the extent of compliance with the headquarters Fitness Center contract, and the adequacy of financial reporting under the contract.
During the audit, we interviewed Commission and contractor staff, surveyed Fitness Center members, observed conditions at the headquarters and Operations Center facilities, and reviewed available documentation, including the contract with Sinai Fitness, Inc., monthly status reports, and invoices.
The audit was conducted between February and July, 1996, in accordance with generally accepted government auditing standards.
AUDIT RESULTS
Over the last several years, the Commission has effectively implemented a program to improve the health and fitness of its employees.  It has opened fitness centers in headquarters and the Operations Center; purchased weight training and aerobics equipment for the centers; and hired staff and a contractor (Sinai Fitness, Inc.) to help run the headquarters center, among other steps.
Sinai has generally complied with the contract's terms, including financial recording and reporting.  It has run the headquarters center in a professional manner, under the direction of the Center's Director, an employee of the Office of Administrative and Personnel Management.  Among other accomplishments, Sinai and the Director have established a program of aerobics classes; given physical assessments and advice to members; and run numerous special programs and events, including seminars on healthy living and sports.
We are making several recommendations to enhance the fitness program, as discussed below.
EFFECTIVENESS ISSUES
Operations Center Facility
The Operations Center has a small fitness facility which is currently being enlarged.  The facility is run by its members, with no staff from the Commission or Sinai working there.  Members are not charged a fee.
This arrangement has certain disadvantages.  The Operations Center facility does not have trained staff to run it, decide what equipment is needed, and offer advice, physical assessments, classes, and special programs.  If someone became ill or hurt while using the facility, no one is assigned or trained to take action, which could lead to a delay in appropriate care and possible legal liability for the Commission.
Recommendation A
The Office of Administrative and Personnel Management should consider assigning at least one fitness specialist to the Operations Center facility, either its own or contractor staff.  The specialist would manage the facility and its programs.  If the present arrangement is maintained, OAPM should consider ways to increase safety at the Operations Center facility, for example, by installing an intercom or video cameras there.
Regional Facilities
According to OAPM, the number of regional staff interested in fitness programs is not large enough to justify establishing facilities in each region.  However, the regions can sign agreements with other federal agencies to use their facilities.  The Commission will pay a one time introductory fee of up to $1000 per region, but regional staff must pay all other membership fees.  Most regions have not yet signed agreements with other federal agencies.
Recommendation B
The Office of Administrative and Personnel Management should publicize Commission policy towards regional fitness facilities.  It should also consider surveying regional employees on fitness issues, including their interest in joining a regional facility.
Fitness Advisory Committees
The Fitness Center communicates with its members in various ways.  It periodically issues a newsletter, posts notices of classes on the Local Area Network (LAN) Bulletin Board, has established a suggestion box, and has surveyed members (for example, on their classes preferences).
Currently, the Center has a Fitness Advisory Committee consisting of the Center's Director and representatives of Sinai and the Office of the Executive Director.  It discusses all aspects of the Center's operation, including classes, equipment, and special programs.  OAPM plans to establish a similar committee for the Operations Center.  Adding employee members to the Committee would provide an additional communication channel with members.
Recommendation C
The Office of Administrative and Personnel Management should include members from headquarters and the Operations Center on the Fitness Advisory Committees.
Bulletin Board
The Fitness Program could benefit from the Commission's increasing use of automation.  Currently, the Fitness Center posts class schedules and announcements of upcoming events on the LAN Bulletin Board.  These messages are mixed with non-fitness matters.
OAPM could establish a Fitness Bulletin Board dedicated to fitness matters.  Besides class schedules and announcements, the Fitness Bulletin Board could contain the policies and procedures of the Fitness Program, and authoritative advice on health and fitness matters.
Since the Commission now has Internet e-mail access, OAPM could join relevant Internet news groups on health and fitness.  It could review and download particularly worthwhile files, and (after screening for viruses) post them on the Fitness Bulletin Board.
Recommendation D
OAPM should consider establishing a Fitness Bulletin Board.
Policies and Procedures Manual
Members receive a list of rules when they join, and the Fitness Center has also issued a brochure describing its mission and activities.  However, all pertinent fitness policies and procedures are not documented in one place, and some are not documented at all (for example, the regional fitness program).
A detailed policies and procedures manual for the Fitness Program would be a useful reference guide for members and the staff who run the fitness facilities.  The Manual should reflect any changes made as a result of this audit.
Recommendation E
OAPM should prepare a policies and procedures manual for the Commission's Fitness Program.
Lockers
With 110 members, the Operations Center facility has five lockers for men, and four for women.  Considering membership size, the number of lockers should be increased.
Recommendation F
OAPM should install more lockers in the Operations Center facility.
FINANCIAL ISSUES
Salary Verification
Members' annual fees are based on their salary levels.  Currently, the Fitness Center does not verify members' reported salaries.
We selected a judgement sample of sixteen members for review.  Four of the sixteen underpaid their fees, based on their salary level, paying $177 when they should have paid $203.
Recommendation G
OAPM should verify salary levels (by consulting the Comptroller's Office or Personnel) when members pay annual fees.
Recommendation H
OAPM should consider reviewing the accuracy of fee payments during the last fiscal year, and taking appropriate action to collect underpayments or refund overpayments.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us